No.

20<C3>

In The
Supreme Court of the United States

Peter R. Culpepper, Petitioner,
v.
Provectus Biopharmaceuticals, Inc., Respondent.

November 3, 2020.

FILED
NOV 0 3 2020

On Petition For Writ Of Certiorari
To The Court of Appeals of Tennessee

OFFICE OF THE CLERK
SUPREME COURT. U S

Petition for Writ of Certiorari

Peter R. Culpepper,
9700 Collier Pass Lane,
Knoxville, TN 37922,
604-0657,
(865)
pete@culpepper.ch.
Pro Se.

QUESTION PRESENTED

The Federal Arbitration Act (“FAA”), 9 U.S.C. § 1 et seq., was enacted for the
purpose of ensuring that arbitration agreements are valid and enforced. The
FAA covers employment agreements that require arbitration to resolve workrelated disputes. Congress intended the FAA to protect the enforcement of
arbitration agreements as agreed to by the contracting parties. Most states
have enacted laws that uphold the validity of arbitration agreements;
however, numerous legal questions have arisen that resulted in several cases
before the Court. A case of first impression in the State of Tennessee is an
unresolved legal question. The FAA provides, “Notice of a motion to vacate,
modify, or correct an award must be served upon the adverse party or [her]
attorney within three months after the award is filed or delivered.” 9 U.S.C.
§ 12. However, Tennessee state law, Tenn. Code Ann. § 29-5-312 provides,
“Upon application of a party, the court shall confirm an award, unless, within
the time limits hereinafter imposed, grounds are urged for vacating or
modifying or correcting the award[.]” The difference between the FAA and
the adoption of the FAA by the State of Tennessee is significant, because
“grounds” is more specific and unyielding to proper dispute than “notice.” The
FAA merely requires notice of a motion to vacate or modify within the 90-day
time limit; whereas, § 312 mandates that a dissatisfied party assert all
relevant grounds for modification or vacation.

The question presented is: Whether a state arbitration law that provides a
stricter mandate than Congress intended is preempted by the Federal
Arbitration Act and the Supremacy Clause, U.S. Const, art. VI, cl. 2.

l

RULE 29.6 STATEMENT

Petitioner Peter R. Culpepper is a person and Respondent Provectus
Biopharmaceuticals, Inc. is a publicly held corporation.

TABLE OF CONTENTS

QUESTION PRESENTED

l

RULE 29.6 STATEMENT .

,ii

TABLE OF AUTHORITIES

IV

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

RELEVANT CONSTITUTIONAL AND STATUTORY PROVISIONS

1

INTRODUCTION

2

STATEMENT

3

STATEMENT OF THE FACTS

.5

REASONS FOR GRANTING THE WRIT

7

I. The Decision Below Directly Conflicts With Decisions Of Multiple
7
Federal Courts
II. The Preemption Question Presented Is Important ...............

14

CONCLUSION.......................................................................................

17

APPENDIX A: Opinion of the Court of Appeals (Tenn. Ct. App. 2020)..... la
APPENDIX B: Order of the Supreme Court (Tenn. 2020)

11a

APPENDIX C: Opinion of the Court of Appeals (Tenn. Ct. App. 2020)... 12a
APPENDIX D: Two Orders of the Chancery Court (Tenn. Ch. Ct. 2019) .31a
APPENDIX E: Constitutional and Statutory Provisions

li

40a

APPENDIX F: Materials Demonstrating That Federal Questions Were
41a

Raised Below

Amended and Restated Executive Employment Agreement (Apr. 28, 2014)
41a
Interim Award, Employment Arbitration Tribunal (Jul. 12, 2018)........... 51a
Award, Employment Arbitration Tribunal (Sep. 12, 2018)......................... 58a
Application for Permission to Appeal by Culpepper (Tenn. Jun. 15, 2020)
65a
Brief of Appellant Culpepper (Tenn. Jun. 15, 2020)

m

83a

TABLE OF AUTHORITIES
Cases

Allied-Bruce Terminix Cos. v. Dobson, 513 U.S. 265 (1995)

15

AT&T Mobility LLC u. Concepcion, 563 U.S. 333 (2011).....

15

BBVA Securities v. Cintron, 2012 WL 2002304 (D.P.R. June 4, 2012).. 12
Bonar v. Dean Witter Reynolds, Inc., 835 F.2d 1378 (11th Cir. 1988)
....................................................................................................................9, 10, 12, 13
Buckeye Check Cashing, Inc. u. Cardegna, 546 U.S. 440 (2006).........

16

Circuit City Stores, Inc. v. Adams, 532 U.S. 105 (2001).......................

8

Coventry Health Care of Mo., Inc. v. Nevils, 137 S. Ct. 1190 (2017)...

15

Dealer Computer Services, Inc. v. Dub Herring Ford,
489 F.Supp.2d 772 (E.D. Mich. 2007)........................................

11, 12

DIRECTV, Inc. v. Imburgia, 136 S. Ct. 463 (2015)...............................

15

Doctor’s Associates, Inc. v. Casarotto, 517 U.S. 681 (1996)..................

14

Doyle v. Frost, 49 S.W.3d 853 (Tenn. 2001)........................................

9

Hall St. Assocs., L.L.C. v. Mattel, Inc., 552 U.S. 576, 582 (2008).......

16

International Brotherhood of Teamsters v. United Parcel Service,
12

335 F.3d 497 (6th Cir. 2003).........................................................
International Chem. Workers Union v. Mobay Chem. Corp.,
755 F.2d 1107 (4th Cir. 1985)......................................................

12

Kindred Nursing Ctrs. Ltd. P’ship v. Clark, 137 S. Ct. 1421 (2017)...

15

Marmet Health Care Ctr., Inc. v. Brown, 565 U.S. 530 (2012)............

15

Mastrobuono v. Shearson Lehman Hutton, 514 U.S. 52 (1995)..........

15

Nitro-Lift Techs., L.L.C. v. Howard, 568 U.S. 17 (2012).......................

15

Passa v. City of Columbus, 2008 WL 687168 (S.D. Ohio Mar. 11, 2008)
11, 12
Perry v. Thomas, 482 U.S. 483 (1987)

IV

15

Preston v. Ferrer, 552 U.S. 346 (2008)..........................................

15

Southland Corp. u. Keating, 465 U.S. 1 (1984)............................

8, 15

Stulberg v. Intermedics Orthopedics, Inc., 1999 WL 759608
(N.D. Ill. Aug. 31, 1999)......................................................

12

Thomas v. Oldfield, 279 S.W.3d 259 (Tenn. 2009)................

9

Vincent v. CNA Ins. Co., 2002 WL 31863290
(Tenn. Ct. App. Dec. 23, 2002).........................................

9

Volt Info. Scis. v. Bd. ofTrs., 489 U.S. 468 (1989)......................

15

Constitutional Provisions

U.S. Const, art. VI, cl. 2

i, 2, 14

Statutes

Federal Arbitration Act, 9 U.S.C. § 1 et seq

2, 7, 10, 14, 15, 16

9 U.S.C. § 12.....................................................

i, 9, 10, 11, 12, 13

28 U.S.C. § 1257(a).........................................

1

Tenn. Code Ann.§ 29-5-312..........................

i, 3, 13

Tenn. Code Ann. § 29-5-313.......................

4

Tenn. Code Ann. § 29-5-313(b)..................

4, 8, 9, 12

Rules

8, 9

Tenn. R. Civ. P. 15
Tenn. R. Civ. P. 15.01

4, 8, 12

Tenn. R. Civ. P. 15.03

9, 12

v

PETITION FOR A WRIT OF CERTIORARI

Petitioner Peter R. Culpepper respectfully petitions for a writ of certiorari to
review the judgment of the Tennessee Court of Appeals.

OPINIONS BELOW

The opinion of the Tennessee Court of Appeals (Pet. App. la-10a) is not
published in an official or regional reporter but is available at 2020 WL
1867043. The case is Prouectus Biopharmaceuticals, Inc. v. Culpepper, No.
M2019-00662-COA-R3-CV (Tenn. App., Nashville, Apr. 14, 2020). The
Supreme Court of Tennessee's order denying permission to appeal (Pet. App.
1 la) is not published. A related opinion of the Tennessee Court of Appeals
(Pet. App. 12a-30a) is not published in an official or regional reporter but is
available at 2020 WL 6112985. The case is Culpepper u. Baker, Donelson,
Bearman, Caldwell & Berkowitz, P.C., et al, No. E2019-01932-COA-R3-CV
(Tenn. App., Knoxville, Oct. 16, 2020). Relevant orders of the Chancery
Court for Davidson County, Tennessee (Pet. App. 31a-39a) are not published.

JURISDICTION

The judgment of the Tennessee Court of Appeals was entered on April 14,
2020. Pet. App. la. The Supreme Court of Tennessee denied permission to
appeal on August 5, 2020. Pet. App. 11a. On November 3, 2020, Petitioner
filed a petition for a writ of certiorari to this Court, which has jurisdiction
pursuant to 28 U.S.C. § 1257(a).

RELEVANT STATUTORY AND CONSTITUTIONAL PROVISIONS
The relevant constitutional and statutory provisions are reproduced at Pet.
App. 40a.

1

INTRODUCTION

Every day, Respondent Provectus Biopharmaceuticals, Inc. struggles adrift
without a Chief Executive Officer (“CEO”). Its frustrated stockholders—and
the public-at-large because of stalled development of its potentially lifesaving
therapies—suffer anemic corporate progress after Provectus wrongly
terminated its last CEO, Petitioner Peter R. Culpepper, in December 2016
because of the alleged misconduct of its corporate counsel. Remarkably,
Culpepper and the Court of Appeals of Tennessee at Knoxville agree on the
alleged misconduct of Provectus’ corporate counsel as of October 2020 as pled
by Culpepper. As the Court of Appeals of Tennessee held, “Upon our review
of the pleadings and acceptance as true of all well-pleaded facts contained in
the plaintiffs [Culpepper’s] complaint and the reasonable inferences that
may be drawn therefrom, we [the Court of Appeals of Tennessee] determine
that the plaintiff has pled sufficient facts in support of his claim of legal
malpractice.” Pet. App. 12a. The corporate counsel allegedly committed legal
malpractice in their co-representation of Culpepper in 2016 by fabricating
evidence for Provectus to terminate him without either notice to him or his
knowledge of any conflict. The corporate counsel continued to represent
Provectus during the arbitration hearing of Culpepper in May 2018 when
fraudulently concealed evidence produced by a third-party post-discovery
revealed the alleged legal malpractice of the corporate counsel.

But the Court of Appeals of Tennessee at Nashville held earlier in April 2020
that Provectus could erroneously rely on the Tennessee Uniform Arbitration
Act instead of the Federal Arbitration Act under 9 U.S.C. §§ 1 et. seq. when
the two laws conflict. The FAA is clearly required under the Amended and
Restated Executive Employment Agreement which was prepared by the
corporate counsel for Culpepper. The holding by the court in April is
obviously incorrect to apply conflicting state arbitration law, and its holding
also conflicts with federal decisions applying Rule 15 of the Federal Rules of
Civil Procedure to cases decided under the FAA. The strict mandate of the
Tennessee Act as opposed to the more well-balanced judicial proceedings
favored by the FAA thwarted Culpepper’s efforts to present evidence to the
Tennessee courts to consider the merits of the arbitration award which was
procured by corruption, fraud, or other undue means because of the corporate
counsel’s alleged legal malpractice. The court recognized it was unaware of
any decisions in Tennessee or other state courts that directly address this
issue of whether to apply Rule 15 to a motion to vacate an arbitration award,
yet the court persisted to apply the Tennessee Act which is materially
different from the language found in the parallel provision in the FAA. The
Supremacy Clause, U.S. Const, art. VI, cl. 2, the FAA, and common sense

2

require that Provectus hear evidence to determine whether the arbitration
award should be vacated. Tennessee cannot simply exempt itself from the
requirements of federal law by pointing to a conflicting state law—
particularly when that state law is supposed to implement the federal law.
This Court should grant the petition for writ of certiorari for plenary review
or for summary reversal to bring the State of Tennessee into line with the
rest of the country in this important area of contract law. The drafter of the
contract—Provectus’ corporate counsel—is expressly arguing against the
FAA’s proper application because state law favors its improper use in their
legal arguments to win at any cost.

STATEMENT

Provectus
Biopharmaceuticals,
Inc.
(hereinafter
“Provectus”),
Respondent, filed its Petition to Confirm Arbitration Award (“Petition”)
in the Davidson County Chancery Court pursuant to Tenn. Code Ann. §
29-5-312 on October 4, 2018. Provectus alleges in its Petition that it was
awarded a recovery in arbitration proceedings filed against Petitioner
Peter R. Culpepper (“Culpepper”). Provectus asserts that the Arbitrator
issued an Interim Award on July 12, 2018 pursuant to the FAA, and a final
Award pursuant to the FAA on September 12, 2018. Pet. App. 51a-64a.
Culpepper filed his pro se “Answer to Petition to Confirm Arbitration Award”
(“Answer”) on November 7, 2018. In the Answer, Culpepper admitted the
issuance of the Interim Award and the final Award but specifically
requested “modification or correction of the award.” The request for
modification or correction contained in the original Answer filed by
Culpepper was directed at the request by Provectus for an award of pre­
judgment interest while Culpepper alleged the impropriety of the
Arbitrator directly to the American Arbitration Association (“AAA”).
Culpepper filed his pro se “Amended Answer to Petition to Confirm
Arbitration Award” on December 11, 2018. In the Amended Answer,
Culpepper specifically requests that “this Court review the award.” In
addition to his previous request for modification or correction in relation
to pre-judgment interest, Culpepper asserted in the Amended Answer
that he had filed a complaint with the AAA “alleging impropriety of the
Arbitrator.” Culpepper also asserted that he was formerly a client of the
attorneys for Provectus and that counsel for Provectus had a conflict of
interest in proceeding against Culpepper. Culpepper’s pro se efforts to
pursue a legal malpractice claim against Provectus’ corporate counsel
because of their conflict of interest has resulted in the more recent opinion
by the Tennessee Courts of Appeal. Pet. App. 12a-30a.

3

On January 10, 2019, Culpepper filed his “Motion to Amend ‘Answer to
Petition to Confirm Arbitration Award’ and ‘Amended Answer to Petition
to Confirm Arbitration Award’” (hereinafter “Motion to Amend
Pleadings”) to further amend his pleading. In the Motion to Amend
Pleadings, Culpepper requested that the Court allow the filing of an
amended pleading requesting that the Court vacate the arbitration
award, to provide more detail and clarity to the factual circumstances,
and to clarify that he requests that the Tennessee court vacate the
Interim Award of July 12, 2018, and the Award of September 12, 2018,
pursuant to the provisions of Tenn. Code Ann.§ 29-5-313, which were
understood to be accordance with the FAA as required in the Amended
and Restated Executive Employment Agreement by Provectus’ corporate
counsel. Pet. App. 47a. In an Order entered January 23, 2019, the trial
court denied the Motion to Amend Pleadings filed by Culpepper and
granted the Motion for Judgment on the Pleadings filed by Provectus. In
ruling on the Motion to Amend Pleadings, the Court held as follows:

The Court dismisses Respondent's argument that Rule 15.01
of the Tennessee Rules of Civil Procedure should operate to
permit amendment to assert a claim to vacate the Arbitration
Award. The explicit wording of Tenn. Code Ann.§ 29-5-313(b)
indicates to the Court that Rule 15.01 of the Tennessee Rules
of Civil Procedure does not apply to the facts before the Court.
The Court finds there was not a timely application to vacate
the Final Award, and therefore the Respondent's Motion to
Amend is denied as futile.

Pet. App. 34a. The Court entered its Judgment Confirming Arbitration
Award on the same day awarding money judgment to Provectus on the
arbitration award in the amount of $2,625,028.86.

On February 20, 2019, Culpepper filed a “Motion to Alter or Amend
Judgment and Order Pursuant to Rule 59.” The Motion to Alter or Amend
was denied by the trial court by Order entered on April 1, 2019. Pet. App.
37a-39a. In its Order, the trial court found that “Rule 15.01 of the
Tennessee Rules of Civil Procedure is not applicable to the current facts
before the Court because the January 10, 2019 Motion to Amend to assert
a counterclaim to vacate the Arbitration Award was Respondent's first
attempt to vacate the Arbitration Award.” Culpepper filed his Notice of

4

Appeal to the Court of Appeals on April 17, 2019. On April 14, 2020, the
Court of Appeals entered its Judgment and Opinion affirming the decision
of the trial court. Pet. App. la-lOa. The Tennessee Court of Appeals held
that Culpepper failed to make an application to vacate the arbitration
award and failed to state the grounds for vacating the award within 90
days and that the subsequently filed motion and pleadings did not apply
to allow relation back to his original pleading. Pet. App. 8a-9a. On August
5, 2020, the Supreme Court of Tennessee denied the application for
permission to appeal by Culpepper. Pet. App. 11a.

STATEMENT OF THE FACTS

Culpepper was employed by Provectus from February 2004 through
December 2016, first as its Chief Financial Officer, shortly thereafter also
its Chief Operating Officer, and then as its Interim Chief Executive Officer.
Culpepper and Provectus had a series of employment agreements over the
years prepared by Provectus’ corporate counsel, the most recent of which
was an Employment Agreement entered into between Provectus and
Culpepper dated April 28, 2014. Pet. App. 41a-50a. Provectus alleges in
its Petition that it discharged Culpepper “for cause” based upon an
assertion—alleged as fabricated—that he had obtained inappropriate and
undocumented travel advances and reimbursements totaling over
$300,000.00 over a three-year period. Culpepper denies that he was
terminated for cause and asserts in his Answer and subsequent legal
action against Provectus’ corporate counsel that the stated reason was
“merely the purported reason for his termination.” Pet. App. 92a. During
the entirety of the arbitration proceedings and Culpepper’s nearly
thirteen (13) employment at Provectus, Provectus was represented by
attorneys of the law firm of Baker, Donelson, Bearman, Caldwell &
Berkowitz, P.C. (the “Law Firm” or “Baker Donelson” or “the Baker Firm”)
and continued to be represented by the Law Firm in the proceeding before
the Davidson County Chancery Court and Tennessee Court of Appeals.
Pet. App. 92a. Culpepper was also previously a client of Baker Donelson
up to and including one day after he was terminated purportedly “for
cause” by Provectus because of the Law Firm’s alleged legal malpractice.
Pet. App. 12a-30a.

Unknown to Culpepper, while Culpepper was a client of the Law Firm,
attorneys of the Law Firm had been involved with investigations of
Culpepper and had been interviewed by a fact and expert witness who

5

ultimately testified at the arbitration hearing relating to the “for cause”
termination of Culpepper. Pet. App. 93a. Also unknown to Culpepper at
the time, one or more attorneys of the Law Firm recommended to the
Board of Directors of Provectus the termination of Culpepper “for cause”
on December 27, 2016, while at the same time representing Culpepper
individually.
Pet. App. 93a.
During the arbitration proceedings,
Culpepper sought discovery from Provectus including the production of
documents from Provectus and Provectus, acting through the Law Firm,
produced a number of documents. Three days prior to the beginning of
the arbitration hearing, Provectus, acting through the Law Firm,
produced additional documents that had not been produced in the original
production months earlier. Included within the documents produced were
notes from the expert witness of Provectus that reflected an interview by
an investigator of Lori B. Metrock, an attorney with the Law Firm, during
which the attorney discussed her communications with Culpepper and
discussed her impressions of Culpepper including her impression that
Culpepper was “negligent.” Pet. App. 94a.

Lori B. Metrock also informed the investigator that Culpepper had been
kept by Provectus on advice of counsel in order to answer questions by the
Securities and Exchange Commission. Culpepper had no knowledge as to
the interview of Lori B. Metrock by the investigator or of the existence of
the notes of the interview until three days prior to the beginning of the
arbitration hearing. Pet. App. 94a. Provectus also produced during the
Arbitration Proceedings the minutes of the Meeting of the Board of
Directors of Provectus that occurred on December 27, 2016, but the
minutes of the meeting were heavily redacted. The parts not redacted
reflected that the “directors then extensively discussed Mr. Culpepper’s
status in the Company and the results of the investigation.” Pet. App.
94a. The actual minutes of the discussion are redacted so Culpepper has
been unable to identify what was said. It is clear from the unredacted
portions of the minutes, however, that both Lori B. Metrock and the
expert witness were present for the meeting of the Board of Directors.
Pet. App. 94a. The Law Firm terminated its representation of
Culpepper by letter directed to Culpepper dated December 28, 2016,
one day after recommending his termination for cause. The Law Firm
represented Culpepper individually at the same time it was
participating in an investigation related to Culpepper and at the time
lawyers of the Law Firm recommended the termination of Culpepper
“for cause.” Pet. App. 95a. At the beginning of the arbitration hearing,
counsel for Culpepper
addressed the recently
discovered
circumstances with the arbitrator and requested that the expert
witness be excluded from testifying at the hearing. Pet. App. 95a. The

6

arbitrator declined to grant the request of Culpepper in this regard
and declined to allow access to the redacted portions of the Board
minutes. Pet. App. 95a. These factual circumstances are the basis for the
request by Culpepper to vacate the arbitration award.

REASONS FOR GRANTING THE WRIT

This case involves a direct conflict between state and federal laws governing
arbitration to resolve disputes in the United States. Arbitration should be
viewed as an expeditious and economical alternative to litigation. However,
when an arbitration award has been procured by corruption, fraud, or other
undue means, the Federal Arbitration Act provides an appropriate safety
value upon proper notice to vacate the award and proceed anew. The state
court held that the state law must prevail in the face of such a conflict; i.e.,
that the state law preempts the conflicting federal law.

The Federal Arbitration Act, 9 U.S.C. § 1 et seq., prohibits unjust arbitration
awards based on sufficient notice of a motion to vacate, modify, or correct an
award. Tennessee asserts that state law gives it discretion to ignore both the
FAA and the Employment Agreement of Culpepper established by federal law
when it sees fit. The Tennessee Court of Appeals acknowledged that the
State's interpretation of state law is directly contrary to the FAA and to federal
decisions construing the FAA The court nevertheless held that the state’s
interpretation of the state law that purports to implement the FAA preempts
the requirements of the FAA and the clear choice of federal law as drafted by
the conflicted Law Firm of Baker Donelson in the Employment Agreement.
The decision of the court is plainly incorrect and it conflicts with decisions of
federal courts to consider these issues. This Court should grant the petition
for a writ of certiorari for plenary review or summary reversal.

I. The Decision Below Directly Conflicts With Decisions Of
Multiple Federal Courts.

The Tennessee Court of Appeals held that a state law intended to implement
the FAA preempts the requirements of the FAA itself when the state law
provides less protection from unjust arbitration awards for contracting
parties residing within the United States. That decision is contrary to law
and logic. It also conflicts with decisions from multiple federal courts. If the

7

decision below is left undisturbed, the FAA—a statute that Congress enacted
to establish “a national policy favoring arbitration,” Southland Corp. u.
Keating, 465 U.S. 1, 10 (1984)—will simply not apply to the State of
Tennessee’s delegated authority to properly implement the FAA and fairly
adjudicate Employment Agreements expressly mandating application of the
FAA. In 2001, this Court confirmed that the FAA also covers employment
agreements that require arbitration to resolve work-related disputes. Circuit
City Stores, Inc. v. Adams, 532 U.S. 105 (2001). This Court's intervention is
necessary to ensure that federal arbitration and employment contract
mandates are not simply discarded in the State of Tennessee.

Rule 15 of the Tennessee Rules of Civil Procedure applies to the Motion
to Amend Pleadings filed by Culpepper to allow the amended request to
vacate the arbitration award to relate back to the original request filed by
Culpepper within the ninety-day period.

The Tennessee courts in this case did first consider the Motion to Amend
Pleadings prior to ruling on the Motion for Judgment on the Pleadings
but denied the Motion to Amend Pleadings (and thus did not conduct the
analysis to test the legal sufficiency of the counterclaim to vacate) on the
basis that the requested amendment would be futile because there was no
timely request to vacate. In ruling on the Motion to Amend Pleadings,
the court held as follows:

The [cjourt dismisses Respondent's argument that Rule 15.01
of the Tennessee Rules of Civil Procedure should operate to
permit amendment to assert a claim to vacate the Arbitration
Award. The explicit wording of Tenn. Code Ann. § 29-5313(b) indicates to the [cjourt that Rule 15.01 of the
Tennessee Rules of Civil Procedure does not apply to the facts
before the [cjourt. The [cjourt finds there was not a timely
application to vacate the Final Award, and therefore the
Respondent's Motion to Amend is denied as futile.

Pet. App. 34a. The court thus held that Rule 15.01 is not applicable in
the context of the Tennessee Uniform Arbitration Act to allow an
amendment of a pleading that relates back to the original pleading filed
seeking to modify, correct, or vacate an arbitration award.

8

Pursuant to Rule 15.03 of the Tennessee Rules of Civil Procedure,
“[w]henever the claim or defense asserted in amended pleadings arose out
of the conduct, transaction, or occurrence set forth or attempted to be set
forth in the original pleading, the amendment relates back to the date of
the original pleading.” Tenn. R. Civ. P. 15.03. Rule 15.03 “is constructed
liberally in order to promote the consideration of claims on their merits.”
Vincent v. CNA Ins. Co., 2002 WL 31863290 at p. 3 (Tenn. Ct. App. Dec.
23, 2002). The goal behind Rule 15 is “to ensure that cases and
controversies be determined upon their merits and not upon legal
technicalities or procedural niceties.” Doyle v. Frost, 49 S.W.3d 853, 856
(Tenn. 2001) (quoting Karash v. Pigott, 530 S.W.2d 775, 777 (Tenn.
1975)).

Whether Rule 15 applies to applications filed under the Tennessee
Uniform Arbitration Act appears to be an issue of first impression in
Tennessee. The weight of authority in the Federal Courts, however,
addressing the analogous Federal Arbitration Act and the Federal Rules
of Civil Procedure is that Rule 15 does apply in relation to motions to
vacate, modify, or correct arbitration awards. The Courts of Tennessee
have stated that it is appropriate to look to interpretations of the Federal
Rules of Civil Procedure for guidance when there is no Tennessee
authority under the Tennessee Rules of Civil Procedure. See Thomas u.
Oldfield, 279 S.W.3d 259, 262, n.3 (Tenn. 2009). The Respondent in the
case at hand has pointed to the language of Tenn. Code Ann. § 29-5- 313(b)
in arguing that Rule 15.01 does not allow an amendment to an application
to vacate, modify, or correct an arbitration award after the ninety-day
period for making application has run. Tenn. Code Ann. § 29-5-313(b)
provides, in relevant part, that “[a]n application under this section shall
be made with ninety (90) days after delivery of a copy of the award to the
applicant....” Tenn. Code Ann.§ 29-5-313(b).

Section 12 of the FAA contains the following analogous language to the
Tennessee Act: “notice of a motion to vacate, modify, or correct an award
must be served upon the adverse party or his attorney within three
months after the award is filed or delivered.” 9U.S.C. § 12. In construing
this language, under the FAA a number of Federal Courts have ruled that
Rule 15 of the Federal Rules of Civil Procedure applies to allow
amendments filed after the ninety-day period to relate back to an initial
filing within the ninety-day period. The leading case on the issue is Bonar
v. Dean Witter Reynolds, Inc., 835 F.2d 1378 (11th Cir. 1988). An
arbitration award had been entered against the appellant in that case
based upon statutory violations by the appellant relating to the

9

investment account of the appellees. Bonar 835 F.2d at 1380-81. Within
the three-month period allowed under the FAA, the appellant filed its
original motion to vacate or modify the arbitration award alleging several
issues but making no allegations of fraud. Id. at 1381. The appellants
subsequently discovered that an expert witness for the appellees had
committed perjury during the arbitration hearing. Id. After the threemonth period ran, the appellant filed an amended motion to vacate or
modify the arbitration award adding the grounds that the award was
procured through fraud. Id. The trial court denied the motion to amend
filed by the appellant and entered a final judgment based upon the
arbitration award. Id. The appellants subsequently appealed. Id.

In addressing the decision by the district court, the Eleventh Circuit
Court of Appeals framed the issue as follows: Thus, the issue is whether
an amended motion to vacate an arbitration award, filed outside of the
three month period and raising additional grounds for vacation, is deemed
timely if the original motion to vacate was timely. In challenging the
amended motion as untimely, the appellees admit that they have found
no cases deciding this issue. Nevertheless, they urge, with no support
from the legislative history, that “the [Arbitration Act] does not
contemplate a procedure where a timely motion to vacate preserves a
right to file additional and separately grounded challenges outside of the
three-month period.” Bonar 835 F.2d at 1381-82. In rejecting the
argument that the motion to amend the request to vacate the arbitration
award would not be timely, the Eleventh Circuit Court of Appeals held as
follows: Since the Arbitration Act provides only that notice of a motion to
vacate, modify or correct an award must be served upon the adverse party
or his attorney within three months after the award is filed or delivered,
see 9 U.S.C. § 12, and contains no provisions governing amendments to
timely motions, the Federal Rules of Civil Procedure apply to this issue.
Proceedings to vacate or confirm an arbitration award are instituted by
the filing of a motion in the district court, see 9 U.S.C. §§ 9, 12, just as a
normal civil action is commenced by filing a complaint in the district
court, see Fed. R. Civ. P. 3. Thus, although technically called a “motion,”
the papers filed by a party seeking to confirm or vacate an arbitration
award function as the initial pleadings in post-arbitration proceedings in
the district court. Consequently, Rule 15, which governs amended and
supplemental pleadings in a civil action, should also apply to amended
motions to vacate arbitration awards. Bonar 835 F.2d at 1382. The
Eleventh Circuit Court of Appeals thus held that the amended motion to
vacate related back to the date of the original motion to vacate and was a
timely motion. Id.

10

The federal district court in the case of Passa v. City of Columbus, 2008
WL 687168 (S.D. Ohio Mar. 11, 2008) was faced with similar
circumstances. The plaintiff there had filed suit on behalf of a putative
class alleging that the defendants had violated the Fair Debt Collection
Practices Act and Ohio statutory provisions. Id. at 1. The district court
had previously held that the claims were subject to arbitration. Id. at 2.
The arbitrator ultimately dismissed certain claims of the plaintiff and
granted other claims. Id. The plaintiff filed a motion in the district court
seeking to confirm the award in some aspects and to modify, correct, or
vacate the award in other aspects. Id. The plaintiff subsequently filed an
amended motion asserting additional grounds to vacate the award in part.
Id. at 3. The defendant argued that the second motion was time barred under
9 U.S.C. § 12 because it was served more than three months after the award.
Id. at 5. The defendant argued that the “conclusory” allegations made in
the first motion could not serve as a “placeholder.” Id. In response, the
plaintiff argued that Fed. R. Civ. P. 15 allowed the filing of the
supplemental pleading. Id. In addressing the issue, the District Court
stated that “the Court must decide whether Plaintiff's Second Motion is a
timely ‘supplement’ to Plaintiff's First Motion when the Second Motion
was filed beyond the three-month statutory period, seeks additional relief
beyond that in the First Motion and abandons grounds for relief raised in
Plaintiff's First Motion.” Id. at 5. In reliance upon the Bonar decision as
well as the Dealer Computer decision discussed below, the District Court
held that Rule 15 applied to permit the plaintiff to amend her pleadings
outside of the three-month period. Id. at 6-7. The District Court held that
“in light of the purpose behind Section 12 [of the FAA] and the willingness
of federal courts to liberally construe the form of notice, the Court
concludes that permitting [the amendment] will not “circumvent Section
12 [of the FAA].” Id. at 7.

As noted, the District Court in Passa relied upon the case of Dealer
Computer Services, Inc. v. Dub Herring Ford, 489 F.Supp.2d 772 (E.D.
Mich. 2007). The plaintiff there had filed a timely motion to vacate an
arbitrator's ruling that allowed the defendants in the case to proceed to
arbitration as a class. Id. at 774. The plaintiff subsequently filed an
amended motion outside of the three-month period. Id. at 776. The
defendants argued that the amended motion to vacate was not timely
because it was filed outside the time required by the FAA. Id. In reliance
upon the Bonar decision, the District Court held that the amended motion
was timely as a result of Rule 15 of the Federal Rules of Civil Procedure.
Id. at 776.

11

A number of other federal courts have likewise allowed the filing of an
amended motion outside of the three-month limitations period to relate
back to the first timely filing pursuant to Rule 15. See, e.g., International
Brotherhood, of Teamsters v. United Parcel Service, 335 F.3d 497, 504-05
(6th Cir. 2003) (ruling that the district court was in error in not allowing
an amendment to vacate an award of an arbitrator that was filed more
than one year after the original complaint); BBVA Securities v. Cintron,
2012 WL 2002304 at pp. 1-2 (D.P.R. June 4, 2012) (allowing the
amendment of a motion to vacate an arbitration award pursuant to Rule
15); Stulberg v. Intermedics Orthopedics, Inc., 1999 WL 759608 at pp. 6-7
(N.D. Ill. Aug. 31, 1999) (allowing defendants to amend their motion to
vacate arbitration award outside the three-month period to assert new
arguments because the original motion was filed within the three month
period); International Chem. Workers Union v. Mobay Chem. Corp., 755
F.2d 1107, 1110 (4th Cir. 1985) (“[although the amendment was filed
after the three-months period specified in 9 U.S.C. § 12, it relates back to
the date of the original complaint because it arose out of the same
occurrence and simply amplified the prayer for ‘other relief.’” - citing Rule
15).

The trial court in the case at hand ruled that “[t]he explicit wording of
Tenn. Code Ann.§ 29-5-313(b) indicates to the Court that Rule 15.01 of
the Tennessee Rules of Civil Procedure does not apply to the facts before
the Court.” Pet. App. 34a. The court thus held that there was no timely
application to vacate the final Award. In ruling upon the Rule 59 Motion
filed by Culpepper, the trial court ruled that the amendment would be
futile because there was no timely filing of a motion to vacate. Pet. App.
37a-39a. The Tennessee Court of Appeals ruled that it was not
persuaded by the reasoning of the federal courts in deciding the
applicability of Rule 15. The Court stated that the language of the
Tennessee Act is different from the language of the FAA. It is the
position of the Culpepper, however, that the reasoning of the federal
decisions in conjunction with the liberal policy of the Tennessee Courts
in allowing relation back of amendments under Tenn. R. Civ. P. 15.03,
make relation back of amendments to vacate arbitration awards just
as equally applicable under Tennessee law and federal law. Based
upon Bonar, Passa, and Dealer Computer and the other authorities
construing the interaction between the Federal Arbitration Act and
Rule 15 of the Federal Rules of Civil Procedure, Culpepper respectfully
asserts that the trial court was in error in not granting the Motion to
Amend Pleadings pursuant to Rule 15.01 of the Tennessee Rules of

12

Civil Procedure. Culpepper respectfully requested that the Tennessee
Supreme Court reverse the ruling of the trial court and the Court of
Appeals and vacate both the Order Confirming the Arbitration Award
and Granting Petitioner's Motion for Judgment on the Pleadings and
the Judgment Confirming Arbitration Award and mandate that the
trial court grant the previously filed Motion to Amend Pleadings to
allow Culpepper to assert that the arbitration award should be
vacated. This Court should grant the petition for a writ of certiorari for
plenary review or summary reversal because the Tennessee courts have
placed Tennessee law above federal law.

The Tennessee Court of Appeals did of course distinguish some cases
allowing the relation-back of post-90-day pleadings under the Federal
Arbitration Act, because it merely requires “notice” of a motion to vacate or
modify within 90 days post-award. 9 U.S.C. § 12. See, e.g., Bonar v. Dean
Witter Reynolds, Inc., 835 F. 2d 1378, 1382 (11th Cir. 1988). But as the
court held, the Tennessee (Uniform) Act requires both the petition and the
grounds to be urged within 90 days. Compare Tenn. Code Ann. § 29-5-312.
The Tennessee Court of Appeals relied upon similar decisions under the
Uniform Arbitration Act by Courts in Idaho and Massachusetts instead of
relying on the required Federal Arbitration Act choice of law in Culpepper’s
Employment Agreement. The confusion perpetrated by Baker Donelson in
their arguments despite the clear language on the face of the Employment
Agreement clouded the issue of whether to apply federal or state law. Had
the Tennessee arbitration law been faithfully enacted according to
Congress’s intent in the Federal Arbitration Act, there would have been no
confusion for the Tennessee courts in this instance.

The decision by the Tennessee Court of Appeals highlights a small, but
potentially significant, difference between the Uniform Arbitration Act as
adopted by most states and the Federal Arbitration Act that will likely
continue to create confusion in lower courts. As explained above, every
federal court of appeals and every federal court to address the question of
amending a pleading to vacate an arbitration award is in agreement on
properly applying the FAA. The Tennessee Court of Appeals’ decision directly
conflicts with those federal decisions.

To illustrate the starkness of the conflict, consider that Baker Donelson
drafted the Amended and Restated Executive Employment Agreement for
Culpepper and Provectus. Pet. App. 41a-50a. The Employment Agreement

13

states in part, “All matters relating to arbitration will be governed by the
Federal Arbitration Act (9 U.S.C. §§ 1 et. seq.) and not by any state arbitration
law” (Emphasis added). Pet. App. 47a. Baker Donelson was the corporate
counsel of Provectus against Culpepper in virtually every legal action
subsequent to the termination of Culpepper which Baker Donelson caused
because of their alleged legal malpractice. Pet. App. 12a-30a. Baker
Donelson knew that it had drafted the Employment Agreement to be
governed by the Federal Arbitration Act and then failed to ensure that the
Tennessee Court of Appeals was both aware of and applied the FAA when
Tennessee law was in conflict. Baker Donelson instead allowed the
Tennessee courts to improperly apply Tennessee state law because of the Law
Firm’s alleged misconduct.

The Tennessee Court of Appeals should have rejected the improper argument
by Baker Donelson to not apply the FAA, and hold that, “because the
supremacy clause of the United States Constitution requires state law to yield
to federal law, the FAA should be applied to Culpepper’s motions to allow
relation back to provide evidence to vacate the arbitration award.” The boldness
with which the Tennessee courts dismissed conflicting federal law for its own
state law underscores the directness of the conflict between its decision and
decisions of every federal court of appeals and federal courts to address these
issues when arbitration awards may be vacated upon sufficient notice. This
Court should intervene to restore federal supremacy principles to Tennessee’s
(and any other states’) arbitration laws.

II. The Preemption Question Presented Is Important.

The Supremacy Clause of the U.S. Constitution provides that federal law “shall
be the supreme Law of the Land.” U.S. Const, art. VI, cl. 2. The Tennessee
Court of Appeals turned that provision on its head when it held that state law
trumps conflicting federal law—even when the state law should have
comported with federal law because Culpepper’s Employment Agreement
specifically required the FAA to govern the arbitration.

This Court plays a vital role in policing federal preemption principles. In
service of that role, the Court has routinely held that the FAA supersedes state
law arbitration requirements that restrain the enforceability of arbitration
agreements under federal law. Of course, this Court grants petitions for a writ of
certiorari when an outlier court erroneously holds that a state law is not

14

preempted by a conflicting federal law. This Court has held that the FAA
preempts a state law or judicial rule at least a dozen times. See, e.g., Kindred
Nursing Ctrs. Ltd. P’ship v. Clark, 137 S. Ct. 1421 (2017); DIRECTV, Inc. v.
Imburgia, 136 S. Ct. 463 (2015); Marmet Health Care Ctr., Inc. v. Brown, 565
U.S. 530 (2012); Nitro-Lift Techs., L.L.C. v. Howard, 568 U.S. 17 (2012);
AT&T Mobility LLC v. Concepcion, 563 U.S. 333 (2011); Preston v. Ferrer, 552
U.S. 346 (2008); Allied-Bruce Terminix Cos. v. Dobson, 513 U.S. 265 (1995);
Doctor’s Associates, Inc. v. Casarotto, 517 U.S. 681 (1996); Mastrobuono v.
Shearson Lehman Hutton, 514 U.S. 52 (1995); Volt Info. Scis. v. Bd. of Trs.,
489 U.S. 468 (1989); Perry v. Thomas, 482 U.S. 483 (1987); Southland Corp.
v. Keating, 465 U.S. 1 (1984). The Court should grant the petition in this case
as well to bring Tennessee back into line with federal law and with every other
major court to consider the question presented.

If left undisturbed, the Tennessee Court of Appeals’ erroneous decision will
seriously undermine Congress’s goal of enforcing a national policy favoring
arbitration. Through the cooperative regulatory regime established by the
FAA, Congress trusted and empowered States to enforce federal arbitration
standards by allowing them to run the arbitrations within their borders. But
at least implicit in the FAA—backed up by the power of the Supremacy
Claus' -is the condition that States implement their arbitrations by applying
the federal standards and requirements at a minimum. States are not free
to simply disregard the FAA’s mandate as specified in a respective state
resident’s Employment Agreement. But that is exactly what Tennessee has
done. This Court has held regarding the FAA, “9 U.S.C. § 1 et seq., limits the
grounds for denying enforcement of ‘written provision [s] in . . . contracts [s]’
providing for arbitration, thereby preempting state laws that would
otherwise interfere with such contracts. § 2.” Coventry Health Care of Mo.,
Inc. v. Nevils, 137 S. Ct. 1190, 1199 (2017). “This Court has several times
held that those statutes preempt state law.” Id.

Although the FAA does not contain an express preemption clause, this Court
has held because of implied preemption principles that the FAA supersedes
state law that “undermine the goals and policies of [the Act].” Volt Info. Scis.,
489 U.S. at 477. This Court has noted that the FAA “was designed ‘to overrule
the judiciary’s longstanding refusal to enforce agreements to arbitrate,”’ and
“[t]he overarching purpose of [the FAA] ... is to ensure the enforcement of
arbitration agreements according to their terms so as to facilitate streamlined
proceedings.” Id. at 478 (quoting Dean Witter Reynolds Inc. v. Byrd, 470 U.S.
213, 219-220 (1985)); AT&T Mobility LLC v. Concepcion, 563 U.S. 333, 344
(2011). Cf. Volt Info. Scis., 489 U.S. at 477 (“While Congress was no doubt
aware that the Act would encourage the expeditious resolution of disputes,

15

its passage was motivated, first and foremost, by a congressional desire to
enforce agreements into which parties had entered.” (citations omitted)).
Clearly, Tennessee courts have attempted to circumvent the provisions of the
FAA because Tennessee state law creates confusion between what is required
in order to vacate an arbitration award procured by corruption, fraud, or other
undue means.

The Tennessee Court of Appeals’ inverse-preemption ruling has serious realworld consequences. Every day, arbitration agreements that require that the
FAA govern a potential work-related dispute will be incorrectly adjudicated
in Tennessee courts because of the interpretation of the FAA through the lens
of the stricter mandate of Tennessee arbitration law. Perhaps even more
troubling is when attorneys who draft arbitration clauses seek to purposely
avoid the implication of their own language when arguing before Tennessee
courts. The largest law firm in the State of Tennessee, Baker Donelson,
carries great weight in every courtroom. When attorneys from such a firm
purposely avoid the clear language of the FAA and use significantly different
language of a parallel state law for their own advantage, the interests of
justice are not served.

Tennessee's decision to ignore the language of an employment agreement has
adverse consequences for businesses. As noted, Congress intended with the
FAA to establish a national policy favoring arbitration and to place
“arbitration agreements on equal footing with all other contracts.” Buckeye
Check Cashing, Inc. v. Cardegna, 546 U.S. 440, 443 (2006). Furthermore, the
FAA “makes contracts to arbitrate ‘valid, irrevocable, and enforceable,’ so
long as their subject involves ‘commerce.’ [9 U.S.C.] § 2. And this is so
whether an agreement has a broad reach or goes just to one dispute, and
whether enforcement be sought in state court or federal.” Hall St. Assocs.,
L.L.C. v. Mattel, Inc., 552 U.S. 576, 582 (2008). When Tennessee opts to ignore
those limits, businesses operating within the State face serious uncertainty
about what standard their own employment agreements will be subject to. A
business that believes it can take advantage of the lax approach adopted in
this case may forego investment in cost-effective front-end employment
measures. And a business that understands that it must comply with federal
arbitration limits and requirements will be at an unfair disadvantage vis-avis companies like Provectus and attorneys at the law firm of Baker Donelson
to whom Tennessee has given a pass.

The Tennessee courts were wrong to permit state law to dominate federal law,

16

APPENDIX A

especially when original arbitration awards specified exclusive federal law. This
Court's intervention is vitally important to align state law with federal, and
to hold in check attorneys who seek to overrun state courts with confusing
arguments that conflict with federal law because their power and influence
in a particular state affords attorneys a perceived license to improperly tilt
the balance of justice.

CONCLUSION

For the foregoing reasons, the petition for a writ of certiorari should be
granted for plenary review. In the alternative, the Court may wish to
consider summarily reversing the decision below.

Respectfully submitted,
Peter R. Culpepper, 9700 Collier Pass Lane, Knoxville, TN 37922, (865) 6040657, pete@culnepper.ch. Pro Se.
November 3, 2020

17

